CIVIL CASE
21-

hV-

In The
SUPREME COURT OF THE UNITED STATES
October Term 2021

Marie Henry
Applicant/Petitioner
V.

FILED
OCT 0 9 2021

frl

■

The Florida Bar, et al,
Respondent.

Application for an Extension of Time Within
Which to File a Petition for a Writ of Certiorari to the
Fifth District Court of Appeal of the State of Florida

APPLICATION TO THE HONORABLE JUSTICE
CLARENCE THOMAS AS CIRCUIT JUSTICE

Marie Henry
P.O. Box 953521
Lake Mary, Florida 32795
Telephone: 704-737-1935
Email: libertviustice2012@gmail.com
October 8, 2021

Applicant/Petitioner, pro s

1

fihi5

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Applicant/Petitioner, Marie Henry is
an individual with no parent corporation. This Rule does not apply to
Applicant/Petitioner.

1

APPLICATION FOR AN EXTENSION OF TIME
To the Honorable Clarence Thomas, as Circuit Justice for the United States Court of
Appeals for the Eleventh Circuit:
Pursuant to Rule 13.5 of the Rules of this Court, Applicant/Petitioner, Marie
Henry, pro se, hereby requests a 60-day extension of time from October 18, 2021,
within which to file a petition for a writ of certiorari up to and including, Friday,
December 17, 2021.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is Marie Henry v. The Florida Bar,
et. al. No: 5D20-994 (June 22, 2021) (attached as Exhibit 1). The Fifth District Court
of Appeal denied Applicant’s motion for rehearing and written opinion on July 20,
2021, (attached as Exhibit 2).
JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari
in this case pursuant to 28 U.S.C. § 1254(1). Under the Rules of this Court, 13.1,
13.3, and 30.1, a petition for writ of certiorari was due to be filed on or before
October 18, 2021. Due to extenuating medical issues, this Application is filed one
day outside Rule 13.5 requirement, that the Application be made at least 10-days in
advance of the filing date for the petition for a writ of certiorari.
REASONS JUSTIFYING AN EXTENSION OF TIME
The decision to be reviewed contains three single words “Per Curiam Affirmed”
(PCA) and was rendered by a panel of jurists (i) who have a property and liberty

2

interest in membership in good standing in a professional license issued by the
defendant, the Florida Bar (“the Bar”); and (ii) over whom the Bar, indirectly exercise
disciplinary jurisdiction. See e.g., Florida Bar v. McCain, 330 So.2d 712, 723 (Fla.
1976), Adkins concur/dissent.1 The PCA opinion is the most common decision in
Florida intermediate appellate courts, the District Courts of Appeal of Florida.2
Applicant respectfully requests a 60-day extension of time within which to file
a petition for a writ of certiorari seeking review of the PCA disposition of the Fifth
District Court of Appeal of Florida, in this case, on the following grounds:
1.

The issues in this case are of great public and constitutional

importance and require adequate time for someone in Applicant/Petitioner’s
dire financial and extenuating medical situation to have adequate time to
research and complete the petition.
An

2.

extension

of

time

is

also

necessary

because

Applicant/Petitioner is a qualified individual with a disability, as defined by
the Americans with Disabilities Act (“ADA”) 42 U.S.C. § 12131(2) and Title II,

l

Any reprimand or disbarment recommended by The Florida Bar is ineffective unless
approved and ordered by this Court. Under the majority opinion we have this
anomalous situation: All attorneys are under the supervision of this Court (in fact
The Florida Bar was created by this Court) and all judges are under the indirect
supervision of The Florida Bar. Florida Bar v. McCain, 330 So.2d 712, 723 (Fla. 1976),
Adkins concur/dissent.

'y

.

'

See Craig E. Leen, Without Explanation: Judicial Restraint, Per Curiam
Affirmances, and the Written Opinion Rule, 12 FIU L. Rev. 309, 310 n. 7 (2017) (“The
affirmance without opinion, better known to appellate practitioners as a PCA, is by
far the most prevalent appellate disposition in our district courts of appeal”), citing
Ezquiel Lugo, The Conflict of PCA: When an affirmative Without Opinion Conflicts
with a Written Opinion, FLA. BAR J., April 2011, at 46.

3

28 CFR § 35.108(a)(l)(iii) which defines a person perceived to be disabled by a
public entity, whether or not he/she believes him/herself to be disabled, to be a
qualified individual under the ADA. The physical disability impairs her ability
to type, use her hand/fingers unrestricted, or to do the level of research
required for the issues implicated by the judgment, for which review will be
sought.
3.

Applicant/Petitioner, a pro se, party intends to seek in forma

pauperis status, as she has not earned an income since April 2015. As a result
of the Bar’s verifiable unlawful deprivation of the property and liberty interest
in an occupational license, she was fired from her job of Staff Counsel, in which
she excelled for more than four years. And Applicant/Petitioner intends to seek
appointment of counsel because the PCA rendered in this case involves a
matter of great public importance, irreparable harm and deprivation of self­
executing fundamental rights.
4.

It is indisputable, the Complaint’s factual allegation, and the

record, including content of (i) the Bar, motion to dismiss; (ii) hearing
transcript; (iii) lower tribunal Order; and (iv) Answer Brief, document the
three-judge panel decided an issue of great public importance that an
individual lacks standing to sue to redress her own grievances against the
government where that individual is aggrieved by the gravity and resulting
immediate or long term collateral effects on one’s property and liberty interests
in career, professional practice and revenue stream from a professional

4

disciplinary prosecution instituted without jurisdiction, and for exercising
constitutional or statutory rights in petitioning to redress grievances against
the government as a (1) statutory party in a criminal matter; (2) a private
citizen; and (3) a party to litigation seeking a fair and impartial tribunal in a
breach of contract dispute with her mortgagee.
5.

In the instant case, the Complaint pleads facts and the Bar filings

confirm that Applicant/Petitioner compulsory association with the Florida
Bar, to hold a professional occupational license, as a member of the United
States third largest mandatory state bar association, directly: (i) resulted in
deprivation

of

constitutionally

protected

privacies,

career,

business

opportunities, opportunity to earn a living, the deprivation of property and
liberty interests in a law license; (ii) denial of the opportunity to practice her
chosen profession; and (iii) is regarded as mentally unfit to practice a trade or
occupation by a public entity.
6.

The intermediate appellate court, as the court of last resort, affirmed

the trial court dismissal on lack of standing and absolute immunity grounds based on
the Florida Bar pre-answer motion to dismiss that did not raise the affirmative
defense “lack of standing” and where the factual allegations plead relief on: (i) First
Amendment retaliation; (ii) violation of constitutionally protected privacies; (iii)
violation of Title VII and the Americans with Disabilities Act, pursuant to a
unanimous three-Commission panel ruling that the Florida Bar is a “governmental
entity” subject to the Florida Civil Rights Act (“FCRA”), of 1992 and therefore

5

prohibited from disciplining the hcense of an attorney in a discriminatory manner3;
as well as the right to sue letters issued by the Equal Employment Opportunity
Commission and Florida Commission on Human Relations.
7.

The pleading and other filings confirm the Florida Bar’s investigation,

probable cause determination, formal complaint, prosecution, guilt, and disbarment
accrued to Applicant/Petitioner because: (i) she filed Ethics complaints, with the
Florida Bar seeking to redress her own personal grievances against the State
prosecutor, in a criminal matter, as a statutory party with coextensive legal rights4
placed within the jurisdiction of the criminal justice system for the illegal arrest and
prosecution of her then 13 year-old daughter for: (a) conduct that is not a crime, and
(b) where the law is clearly established, the child’s detention and arrest violated her
rights secured by the Fourth and Fifth Amendments U.S. Const.; (ii) filing a citizen’s
complaint seeking an internal investigation of the arresting officers misconduct; (iii)
seeking

a

fair

and

impartial

tribunal

in

a

contractual

dispute

with

Applicant/Petitioner own mortgagee by filing a motion to disqualify the trial judge for
perceived prejudice; (iv) criticizing independently unlawful state action, including the
prosecution, secured detention of a child for conduct that is not a crime under Florida

3

The FCRA is administered and interpreted in accord with Title VII of the Civil
Rights Act of 1964, as amended, and the Americans with Disabilities Act (“ADA”).
4 F.S. §§ 985.511 - 985.514 (2009), authority of the court over parents or guardians. J.R. v. State,
923 So.2d, 1269 (Fla. 1st DCA 2006), (rights accorded to parents and child are coextensive... the
child’s and parent’s interests are the same...Florida thus requires that the parents of the child be
summoned along with the child...jurisdiction does not attach until parents and children are both
served).

6

penal code § 845.02 Fla. Stat. and Florida’s Attorney General defending an
indefensible appeal in the Fifth District Court of Appeal in violation of requisite
prosecutorial and constitutional duty and oath of public office; (v) the child and parent
retained attorneys, sued the City of Mount Dora and two of its officers, and (vi) the
attorneys appealed the January 8, 2015, U.S. District Court Order citing, Heck v.
Humphrey, 512 U.S. 477 (1994), as authority that the child could not assert claims
under 42 U.S.C. § 1983 if they would imply the invalidity of a conviction that had not
previously been reversed, expunged, declared invalid.5
8.

An extension of time is also necessary because the PCA opinion

conflicts with this court’s vast jurisprudence on First Amendment, Standing,
Due Process, Equal Protection, and Absolute Immunity. Further, the PCA
opinion is (i) facially and as applied unconstitutional; (ii) violates the First
Amendment petitioning and court access guarantees; and (iii) repudiates this
Court’s mandate that “once the Court has spoken, it is the duty ofother courts
to respect that understanding of the governing rule of law." James v. City of
Boise, 136 S.Ct. 685 (2016).

5

Attorneys filed the appeal because there was not a single case in Florida applying
Heck to the Florida Juvenile Statute and (1) five of the justices who decided Heck
would not have applied the bar to a plaintiff ineligible for habeas relief; and (2) the
circuit courts of appeal are split on how Heck applies, if at all. Three circuits allow
Section 1983 claims by habeas-ineligible plaintiffs, five circuits do not, and three
circuits are internally divided. The child’s trial attorney, stipulated to a dismissal of
remaining claims, pursuant to Fed. Rule. Civ. P. 41(a)(l)(A)(ii).

7

9.

The petition for writ of certiorari will satisfy this Court’s criteria for

Considerations Governing Review on Writ of Certiorari, as set forth in the Court’s
Rule 10(b-c). The public’s health, safety, morals, the integrity of the courts and
violation of the most fundamental constitutional rights are implicated in a PCA
opinion affirming a trial court’s opinion (i) dismissing Applicant/Petitioner’s
complaint in its infancy on an unpled affirmative defense, that an individual lacks
standing to redress her own grievances against the Florida Bar and (ii) that a
governmental entity can use a personal immunity defense to deprive a party of
his/her property interest in a cause of action, when such a defense is a legal
impossibility. For e.g., this court has repeatedly held that the only immunity a
governmental entity is entitled to is that of the sovereign. Absolute immunity, is an
immunity defense that is only available for an individual capacity defendant. See
Kentucky v. Graham, 473 U.S. 159, 166-167 (1985) (The two type of capacities are not
interchangeable and the court and all advocates must distinguish them).
10.

A PCA opinion cannot be the basis for conflict jurisdiction to the

Florida Supreme Court. See Jenkins v. State, 385 So.2d 1356, 1359 (Fla. 1980)
(determining that the Florida Supreme Court lacks jurisdiction to consider a
per curiam affirmance). As such, the extension of time is also needed to address
issues of great public importance, in that the State of Florida has a very broad
public policy in an anti-SLAPP law, which prohibits any government employee,
in any branch of government from bringing legal action against a citizen for
exercising the rights of free speech in connection with public issues, peaceful
assembly, the right to instruct representatives and petition for redress of

8

grievances before the various governmental entities of the State as protected
by the First Amendment U.S. Const, and art. I § 5 Fla. Const.
11.

The PCA opinion, violates the Separation of Power, First, Fourth,

Fifth, and Fourteenth Amendments, Title VII and the ADA because a PCA
cannot be cited as precedent or authority, except to demonstrate res judicata,
and thereby cannot be used to resolve a recurring legal issue. See Dept, ofLegal
Affairs v. District Court ofAppeal, 5th District, 434 So.2d 310 (Fla. 1983) (“The
issue is whether a per curiam appellate court decision with no written opinion
has any precedential value. We hold that it does not.”) See also State v. Swartz,
734 So.2d 448 (Fla. 1st DCA 1999) (“As has been stated countless times before,
a per curiam affirmance decision without written opinion has no precedential
value and should not be relied on for anything other than res judicata.”)
(Citation omitted).
CONCLUSION
For the foregoing reasons, Applicant/Petitioner respectfully requests that
this Court grant an extension of 60 days, up to and including December 17
2021, within which to file a petition for a writ of certiorari in this case.
Respectfully submitted,

7 AaaJi
Marie Henry
P. O. Box 953521
Lake Mary, FL 32795-3521
Office No: (704) 737-1935
libertyjustice2012@gmail.com

9

